           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 TITLE II BENEFICIARIES WHOSE BENEFITS
 HAVE BEEN SUSPENDED AND WHO HAVE A
    DATE OF DEATH ON THE NUMIDENT


       April 2011   A-09-10-10117




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      April 28, 2011                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Title II Beneficiaries Whose Benefits Have Been Suspended and Who Have a Date of
           Death on the Numident (A-09-10-10117)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) had
           adequate controls to ensure it resolved death information on the Numident for
           suspended beneficiaries.

           BACKGROUND
           SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
           under Title II of the Social Security Act (Act). This program provides monthly benefits to
           retired and disabled workers, including their dependents and survivors. 1 Benefits are
           not payable for the month of a beneficiary’s death or later. 2 Upon receipt of a death
           report, SSA terminates the deceased’s benefits and initiates recovery for any payments
           issued after death. 3

           To identify and prevent erroneous payments to deceased beneficiaries, SSA’s Death
           Alert Control and Update System (DACUS) matches reports of death received from
           Federal, State, and local agencies against SSA’s Master Beneficiary Record (MBR). 4
           DACUS also records death information on the Numident, a master file that contains
           personally identifiable information (PII)5 for each individual issued a Social Security
           number (SSN). SSA uses information from the Numident to create a national record of

           1
               Act § 201et seq., 42 U.S.C. § 401 et seq.
           2
               Act § 202(a), 42 U.S.C. § 402(a).
           3
               SSA, Program Operations Manual System (POMS), GN 02230.018, GN 02408.005.C, GN 02408.010.
           4
               SSA, POMS, GN 02602.060. The MBR is an electronic record of all OASDI beneficiaries.
           5
            PII is any information that can be used to distinguish or trace an individual‘s identity, such as name,
           SSN, date and place of birth, or mother‘s maiden name.
Page 2 - The Commissioner

death information called the Death Master File (DMF). 6 As a result of a Freedom of
Information Act7 lawsuit, 8 SSA makes the DMF available to the public.

SSA may suspend benefits while searching for a representative payee for beneficiaries
who are incapable of managing or directing the management of their finances. 9 SSA
may also suspend benefits when it needs to verify a beneficiary’s address or when a
notice sent to the beneficiary returns as undeliverable. 10 Finally, SSA may suspend
benefits for miscellaneous reasons.11

According to SSA’s MBR, as of February 2009, there were approximately
6,500 beneficiaries who were suspended for representative payee development,
address, or miscellaneous reasons who had death information on their Numident. As a
result, either SSA should have terminated their benefits for death, or if erroneous,
removed the death information from their Numident. For our audit, we reviewed a
sample of 250 of these suspended beneficiaries to determine whether SSA took
appropriate corrective action.

RESULTS OF REVIEW
SSA needs to improve controls to ensure it takes timely and proper actions to resolve
death information on the Numident for suspended beneficiaries. Based on our random
sample, we estimate that:

•      4,699 beneficiaries remained in suspended pay status despite the death information
       on their Numident. We estimate 2,976 of these beneficiaries were improperly paid
       approximately $23.8 million.

•      The PII for approximately 2,715 beneficiaries was at risk of being released to the
       public. This included 29 beneficiaries whom SSA subsequently determined were
       alive and are receiving benefits.

•      157 beneficiaries whose benefits were terminated were improperly paid $342,114.
       (See Appendix C.)

Generally, these errors occurred because SSA did not have adequate controls to
identify and timely resolve discrepancies between the Numident and MBR.

6
    SSA, POMS, GN 02602.060.B.1, RM 10235.005.D, RM 10240.010.
7
    5 U.S.C. § 552.
8
    Perholtz v. Ross, Civ. No. 78-2385 and 78-2386 (D.D.C., 1980).
9
    SSA, POMS, GN 00502.001.A, GN 00504.105.A.
10
     SSA, POMS, GN 02605.055.B, SM 03020.080.A.
11
     SSA, POMS, SM 00550.020.B.
Page 3 - The Commissioner


SUSPENDED BENEFICIARIES WITH A DATE OF DEATH ON THE NUMIDENT

Based on a random sample of 250 beneficiaries, we found that 121 (48.4 percent) had
improper payments. This consisted of 114 beneficiaries who remained in suspense and
7 beneficiaries whose benefits SSA subsequently terminated for death. In addition,
66 (26.4 percent) suspended beneficiaries were properly paid, and 63 (25.2 percent)
were properly terminated for death.


            Suspended Beneficiaries with Death Data on the Numident


                                                               114 Suspended
                                                              Beneficiaries with
                                                             Improper Payments
            66 Supended
            Beneficiaries
           Without Improper
              Payments




                                 7 Beneficiaries     63 Beneficiaries
                                Terminated with    Properly Terminated
                              Improper Payments         For Death




Procedures for Identifying Payments to Deceased Beneficiaries

The Act requires that SSA compare States’ death records with SSA payment records,
validate death reports, and correct SSA payment records to reflect the beneficiaries’
status. 12 DACUS compares death reports to information on SSA’s payment records. If
there is conflicting death information, DACUS generates an alert to the local field office
(FO) for action. DACUS also generates follow-up alerts every 30 days and monthly
reports of death alerts over 120 days for SSA regional offices to review. SSA requires
that FOs give prompt attention to death alerts to minimize and prevent improper
payments, and take appropriate action to clear alerts within 30 days. 13 Before
March 2004, DACUS did not generate an alert when SSA received a death report for a
beneficiary who was in suspended pay status in the month of death. However, in
March 2004, DACUS began generating alerts for these cases.14 If SSA determines the
12
     Act § 205 (r), 42 U.S.C. § 405 (r).
13
     SSA, POMS, GN 02602.060.A, GN 02602.065.A and C, SM 00623.003.A.
14
     SSA, POMS, GN 02602.065.A.
Page 4 - The Commissioner


beneficiary is alive, SSA employees must clear the death alert and remove the death
information from the Numident. If SSA determines the beneficiary is deceased, staff
should terminate the benefits. 15 SSA’s Death Alert Tracking System allows FO
management to monitor and control DACUS alerts. 16

Beneficiaries Remaining in Suspended Pay Status

Our review disclosed that SSA did not properly resolve the benefit suspensions of
180 (72 percent) of the 250 beneficiaries in our sample. These 180 beneficiaries had
been in suspended pay status for an average of 11.2 years 17 since SSA recorded their
death information on the Numident. Of these, 114 beneficiaries had improper
payments, and 66 did not.

   Suspended Beneficiaries Improperly Paid - Of the 250 beneficiaries in our sample,
114 (45.6 percent) were improperly paid. This occurred because SSA received death
reports for these individuals but did not terminate their benefits. This consisted of

•     89 beneficiaries who were suspended for the month of death or later, and received
      payments after death totaling $743,733, and

•     25 beneficiaries who were suspended before the month of death and had withheld
      benefits, totaling $166,549, that were payable to their survivors or legal
      representative of their estate.

Benefits are not payable for the month of a beneficiary’s death or later. Upon receipt of
a death report, SSA terminates the deceased’s benefits and initiates recovery for any
payments issued after death. 18 Conversely, when SSA determines it underpaid a
deceased beneficiary, staff must determine the proper recipient for the underpayment.
SSA pays any underpayments due deceased beneficiaries to the surviving spouse,
surviving children, other family members, or legal representative of the estate. 19

For example, SSA suspended benefits to a spousal beneficiary in July 2008 for address
reasons. However, SSA had previously received an Electronic Death Registration
(EDR) 20 report with a date of death of October 20, 2007. Although SSA recorded the
15
     SSA, POMS, GN 02602.060.D.
16
     SSA, POMS, GN 02602.060.E.
17
     The 11.2 years was the mean. The median was 10.8 years.
18
     SSA, POMS, GN 02230.018, GN 02408.005.C, GN 02408.010.
19
     SSA, POMS, GN 02301.030, GN 02301.060, GN 02301.075.
20
   Under EDR, States verify SSNs with SSA at the beginning of the death registration process. This
allows SSA to take immediate action to terminate payments upon receipt of a death report without
needing to verify the report’s accuracy.
Page 5 - The Commissioner


death on the Numident, it did not take action to terminate her benefits and initiate
recovery for any payments issued after the beneficiary’s death. As a result, the
beneficiary had improper payments after death of $10,488.

In an example of an underpayment of benefits, SSA suspended a spouse’s benefits in
July 2002 for miscellaneous reasons. In May 2006, SSA received a report that the
beneficiary died on April 25, 2006. Although the death information was on the
beneficiary’s Numident, SSA did not take action to terminate her benefits. In addition,
SSA did not determine whether the benefits in suspense from July 2002 through
March 2006, totaling $22,563, were payable to a surviving spouse, child, family
member, or legal representative of the estate.

    Timeliness in Resolving Death Information for Beneficiaries in Suspense - Our
review disclosed that SSA had not resolved the benefit suspensions for 180 of the
250 sample cases. SSA received death reports for these 180 beneficiaries and
recorded the deaths on their Numident records. However, SSA did not use this
information to terminate benefits or remove the death information from the Numident if
erroneous. As depicted in the chart below, the 180 beneficiaries had been in
suspended payment status for up to 22 years after SSA recorded their death
information on the Numident. The average length of time the death information was on
the Numident was about 11.2 years.21



                                                 Length of Time in Suspense for
                                      Beneficiaries with Death Information on the Numident
                                      30
            Number of Beneficiaries




                                      25


                                      20


                                      15


                                      10


                                       5


                                       0
                                           Under 3   3-5   5-7   7-9      9-11   11-13   13-15   15-17   17-19   19-21   Over 21


                                                                       Number of Years



Generally, this occurred because SSA did not have effective controls to identify and
resolve Numident death information for beneficiaries in suspense on the MBR. In
addition, we found that SSA had recorded the death information for 69 of the
beneficiaries on another payment record (that is, the MBR or Supplemental Security
Record [SSR]). This consisted of 46 beneficiaries whose deaths were on another MBR,
21
     The 11.2 years was the mean. The median was 10.8 years.
Page 6 - The Commissioner


12 beneficiaries whose deaths were on the SSR, and 11 beneficiaries whose deaths
were on both the MBR and SSR. While SSA recorded the death information on another
payment record, it did not take corrective actions to terminate benefits on the
suspended payment record.

Improper Disclosure of PII to the Public

SSA maintains a record of reported deaths on the DMF, which contains detailed PII on
deceased individuals. SSA provides DMF data to the Department of Commerce’s
National Technical Information Service (NTIS). NTIS, in turn, sells DMF data to public
and private customers. Customers can purchase the complete data file and subscribe
to periodic updates for an additional cost. Rootsweb, 22 Social Security Death Index
(SSDI) is one of several Internet sites that make DMF information available to the
public.

Of the 180 suspended beneficiaries in our sample, we found 104 had their PII on the
SSDI. These beneficiaries’ PII was at risk of inappropriate disclosure since SSA did not
resolve discrepancies between beneficiaries in suspended payment status and the
Numident before it released their death information.

In addition, as of September 2010, SSA had determined that 29 of the
6,527 beneficiaries in our population were alive and receiving benefits. However, SSA
did not remove death information from the Numident for seven beneficiaries. In
addition, PII for five of the seven beneficiaries was on the SSDI. We recently issued a
report that assessed the extent to which SSA releases PII of living individuals
erroneously shown as deceased on the DMF. 23

Beneficiaries Whose Benefits Were Terminated for Death

For 70 of the 250 beneficiaries in our sample, SSA had terminated their benefits.
However, SSA did not recover payments after death or resolve withheld benefits before
the month of death, totaling $29,991 for seven beneficiaries.24 Specifically, SSA did not
recover $7,180 in payments after death from two deceased beneficiaries and did not
issue $22,811 in underpayments to the survivors or the estates of five deceased
beneficiaries. This occurred because SSA did not resolve discrepancies between the
MBR and Numident in a timely manner; or did not take appropriate actions to identify
and issue underpayments to the appropriate individuals. SSA should ensure that staff
terminates benefits of deceased beneficiaries timely to prevent such payments from
being improperly used. In addition, SSA should ensure staff issues payments withheld
from deceased beneficiaries to the beneficiary’s survivor or estate.
22
     http://ssdi.rootsweb.ancestry.com/.
23
 SSA OIG, Follow-up: Personally Identifiable Information Made Available to the Public Via the Death
Master File (A-06-10-20173), March 31, 2011.
24
   One error of $16,887 was a statistical outlier compared to the other errors; therefore, we excluded it
from our projections.
Page 7 - The Commissioner


For example, on April 23, 2008, SSA received an EDR report and recorded the
beneficiary’s death of April 13, 2008 on the Numident. However, SSA did not terminate
the benefits until February 9, 2010. As a result, SSA improperly issued payments after
death of $5,155 to the beneficiary’s representative payee. SSA subsequently notified
the representative payee to refund the overpayment. When the representative payee
did not refund the overpayment, SSA attempted to collect it through tax refund offset
and administrative wage garnishment. However, as of January 2011, the representative
payee had not repaid the overpayment. Had SSA taken timely action to terminate
benefits when it received the death report, it could have avoided the cost and difficulty
of recovering this overpayment.

In another example, SSA suspended a beneficiary’s payments for address development
in February 2008 and subsequently received a report that the beneficiary died on
May 6, 2009. SSA recorded the death on the Numident and properly terminated the
benefits. However, there was no systems alert to ensure appropriate action was taken
to determine whether $16,887 of benefits in suspense for the months before the
beneficiary’s death were payable to the beneficiary’s survivor or estate.

CONCLUSION AND RECOMMENDATIONS
SSA needs to improve controls to ensure it takes timely and proper actions to resolve
death information on the Numident for suspended beneficiaries. In addition, SSA needs
to ensure that staff terminates benefits of deceased beneficiaries in a timely manner
and identifies and pays underpayments withheld from deceased beneficiaries to the
beneficiary’s survivor or estate, as appropriate. As a result, we estimate (1) SSA
improperly paid 2,976 beneficiaries in suspended pay status approximately
$23.8 million; (2) PII for 2,715 beneficiaries was at risk of improper release to the public;
and (3) SSA improperly paid $342,114 to 157 beneficiaries whose benefits staff
terminated for death.

We recommend that SSA:

1. Take appropriate action to terminate benefits or remove erroneous death information
   from the Numident for the 180 beneficiaries identified by our audit.

2. Identify and take corrective action on the remaining population of 6,277 suspended
   beneficiaries who had a date of death on the Numident.

3. Take corrective actions for the seven beneficiaries terminated for death with
   unresolved improper payments.

4. Evaluate the results of its corrective actions for the 7 beneficiaries and determine
   whether it should review the estimated remaining 150 beneficiaries terminated for
   death with unresolved improper payments.
Page 8 - The Commissioner


5. Improve controls to ensure beneficiaries in suspense with death information on their
   Numident are properly resolved in a timely manner.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
Act      Social Security Act
DACUS    Death Alert Control and Update System
D.D.C.   United States District Court for the District of Columbia
DMF      Death Master File
EDR      Electric Death Registration
FO       Field Office
MBR      Master Beneficiary Record
NTIS     National Technical Information Service
OIG      Office of the Inspector General
PHUS     Payment History Update System
PII      Personally Identifiable Information
SSA      Social Security Administration
SSDI     Social Security Death Index
SSN      Social Security Number
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
We obtained a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR) as of February 2009. From this extract, we identified a
population of 6,527 beneficiaries whose benefits had been suspended and who had a
date of death recorded on the Numident. We selected a random sample of
250 beneficiaries from this population for review.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, Federal Regulations,
    and SSA’s Program Operations Manual System;

•   interviewed SSA employees from field offices in the San Francisco Region and the
    Offices of Earnings, Enumeration and Administrative Systems, and Retirement and
    Survivors Insurance Systems;

•   reviewed queries from SSA’s MBR, Payment History Update System, Supplemental
    Security Record, and Numident for each sample item;

•   obtained and reviewed electronic folders, including the Paperless System, and
    Online Retrieval System, when necessary, to determine actions taken by SSA; and

•   reviewed the Social Security Death Index for disclosure of personally identifiable
    information.

We determined the computer-processed data from the MBR and Numident were
sufficiently reliable for our intended use. We conducted tests to determine the
completeness and accuracy of the data. These tests allowed us to assess the reliability
of the data and achieve our audit objectives.

We performed audit work in Richmond, California, between April and November 2010.
The entities reviewed were the Offices of the Deputy Commissioners for Operations and
Systems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
                                                                    Appendix C

Sampling Methodology and Results
From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR), we
identified 6,527 beneficiaries whose benefits SSA had suspended for representative
payee development, address development, or miscellaneous reasons and who had a
date of death recorded on their Numident as of February 2009. We randomly selected
a sample of 250 beneficiaries and reviewed their MBR and Payment History Update
System (PHUS) records to determine the amount of improper payments issued after
death to suspended beneficiaries, incorrect payments issued after death, and
underpayments due beneficiaries terminated for death.

Of the 250 beneficiaries in our sample, we found that (1) 180 remained in suspended
pay status despite the death information on their Numident records; (2) SSA improperly
paid 114 beneficiaries $910,282; (3) 104 had personally identifiable information
released to the public; and (4) SSA did not recover or resolve $29,991 in improper
payments after death for 7 deceased beneficiaries.

Projecting these results to our population of 6,527 beneficiaries, we estimate that
(1) 4,699 beneficiaries remained in suspended pay despite the death information on
their Numident; (2) approximately 2,976 of these beneficiaries were improperly paid
about $23.8 million; (3) personally identifiable information for approximately
 2,715 beneficiaries was at risk of improper release to the public; and
(4) 157 beneficiaries, whose benefits were terminated, were improperly paid $342,114.

Table 1 - Population and Sample Size


 Description                                              Number of Beneficiaries
 Population Size                                                            6,527
 Sample Size                                                                 250

Table 2 - Beneficiaries in Suspense


Description                                               Number of Beneficiaries
Sample Results                                                                180
Point Estimate                                                              4,699
Projection - Lower Limit                                                    4,376
Projection - Upper Limit                                                    4,997




                                          C-1
Table 3 - Beneficiaries in Suspense with Improper Payments


    Description                       Number of Beneficiaries                 Amount of Benefits
    Sample Results                                114                                      $910,282
    Point Estimate                              2,976                                  $23,765,658
    Projection - Lower Limit                    2,636                                  $17,280,347
    Projection - Upper Limit                    3,322                                  $30,250,969

Table 4 - Beneficiaries at Risk of Improper Disclosure of PII


    Description                                                             Number of Beneficiaries
    Sample Results                                                                               104
    Point Estimate                                                                             2,715
    Projection - Lower Limit                                                                   2,381
    Projection - Upper Limit                                                                   3,059

Table 5 - Beneficiaries Terminated for Death with Unresolved Improper Payments


    Description                       Number of Beneficiaries                 Amount of Benefits
    Sample Results 1                                            6                           $13,104
    Point Estimate                                           157                           $342,114
    Projection - Lower Limit                                  70                            $67,644
    Projection - Upper Limit                                 302                           $616,584
Note: All statistical projections are at the 90-percent confidence level.




1
  One error of $16,887 was a statistical outlier compared to the other errors; therefore, we excluded it
from our projections.


                                                     C-2
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      April 15, 2011                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Title II Beneficiaries Whose Benefits Have
           Been Suspended and Who Have a Date of Death on the Numident" (A-09-10-10117)--
           INFORMATION

           Thank you for the opportunity to review the subject report. Please see our attached comments.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Chris Molander, at extension 57401.

           Attachment:
           SSA Response




                                                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “TITLE II BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED
AND WHO HAVE A DATE OF DEATH ON THE NUMIDENT” (A-09-10-10117)

Thank you for the opportunity to review the subject report. We offer the following responses to
your recommendations.

Recommendation 1

Take appropriate action to terminate benefits or remove erroneous death information from the
Numident for the 180 beneficiaries identified by our audit.

Response

We agree.

Recommendation 2

Identify and take corrective action on the remaining population of 6,277 suspended beneficiaries
who had a date of death on the Numident.

Response

We agree.

Recommendation 3

Take corrective actions for the seven beneficiaries terminated for death with unresolved
improper payments.

Response

We agree

Recommendation 4

Evaluate the results of its corrective actions for the 7 beneficiaries and determine whether it
should review the estimated remaining 150 beneficiaries terminated for death with unresolved
improper payments.

Response

We agree.




                                               D-2
Recommendation 5

Improve controls to ensure beneficiaries in suspense with death information on their Numident
are properly resolved in a timely manner.

Response

We agree. Prior to March 2004, our Death Alert Control Update System (DACUS) did not
generate alerts for beneficiaries in suspension status. This was the primary reason for
unresolved, older cases. We enhanced DACUS, and it now generates those alerts. We are
further enhancing some electronic processes for monitoring DACUS alerts, and we expect these
enhancements to assist us in improving our accuracy.




                                              D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Vickie Choy, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-10-10117.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
